Oversight Review                  July 28, 2010 



     Report on Allegation of Unsatisfactory 

      Conditions Regarding Actions by the 

    Defense Contract Management Agency, 

       Earned Value Management Center 



           Report No. D-2010-6-002

   Additional Copies

   To obtain additional copies of the final report, visit the Web site of the Department of
   Defense Inspector General at www.dodig.mil/audit/reports or contact the Assistant
   Inspector General for Audit Policy and Oversight at (703) 604-8760 or fax
   (703) 604-8982.

   Suggestions for Future Reviews

   To suggest ideas for or to request future reviews, contact the Office of the Assistant
   Inspector General for Audit Policy and Oversight at (703) 604-8760
   (DSN 664-8760) or fax (703) 604-8982. Ideas and requests can also be mailed to:


                            Office of the Assistant Inspector General
                                 for Audit Policy and Oversight
                            Department of Defense Inspector General
                              400 Army Navy Drive (Room 833)
                                   Arlington, VA 22202-4704




Acronyms

ANSI/EIA             American National Standards Institute/Electronic Industries Alliance
DCAA                 Defense Contract Audit Agency
DCMA                 Defense Contract Management Agency
GAGAS                Generally Accepted Government Auditing Standards
                                   INSPECTOR GENERAL 

                                   DEPARTMENT OF DEFENSE 

                                     400 ARMY NAVY DRIVE 

                                ARLINGTON, VIRGINIA 22202-4704 




                                                                          JUL 28 2010

MEMORANDUM FOR DIRECTOR, DEFENSE CONTRACT MANAGEMENT
                AGENCY
               DIRECTOR, EARNED VALUE MANAGEMENT CENTER

SUBJECT: Report on Allegation ofUnsatisfactoty Conditions Regarding Actions by the
         Defcnse Contract Management Agency, Earned Value Management Center
         (Report No. D-2010-6-002)

      We are providing this report for your review and comment. We performed this
review in response to a reported allegation of unsatisfactory conditions dated
December 17,2008. We considered Inanagement comments on a draft of this repoti.

       DoD Directive 7650.3 requires that all recommendations be resolved promptly.
The Defense Contract Management Agency comments were partially responsive. Please
reconsider your nonconcurrence with Finding A and partial concnrrence to
Recommendation A 1. We request additional comments to Finding A and
Recommendations AI., A2., A3., B.l., and B.2., by August 27, 2010.

        Please provide comments that conform to the requirements ofDoD Directive
7650.3. Ifpossible, send management comments in electronic format (Adobe Acrobat
file only) to the e-mail address cited in the last paragraph of this memorandum. Copies
of the management comments must contain the actual signature of the authorizing
official. We cannot accept the I Signed I symbol in place of the actual signatnre.

      We appreciate the conrtesies extended to the staff. Questions should be directed to
Ms. Carolyn R. Davis at (703) 604-8877 (DSN 664-8877), carolyn.davis@dodig.mil.




                                  ~~:~11~~
                                         Deputy Inspector General
                                          for Policy and Oversight
Table of Contents

Results in Brief	                                                         i


Introduction

   Objective                                                              1

   Background                                                             1


Findings

   A. Allegation of Unsatisfactory Conditions	                            3

          Insufficient Time for DCAA to Perform an Audit                  3

          Failure to Adequately Resolve the DCAA Findings                 4

          Compromise of Independence/Objectivity in Appearance            6

          Recommendation A                                               10


   B. Other Issues to be Reported	                                       13

         Compliance Review for Cause Reports                             13

         Validation of the Contractor’s Earned Value Management System   13

         Recommendation B                                                14


Appendix

   A. Scope and Methodology	                                             16



Management Comments
   Defense Contract Management Agency Comments	                          17

                    Allegations of Unsatisfactory Conditions

                            Regarding Actions by the 

                    Defense Contract Management Agency

                       Earned Value Management Center


                                                     prohibit joint surveillance reviews or other
Results In Brief                                     joint activities with contractors that could
                                                     compromise independence and objectivity,
What We Did                                          and request DCAA participation in
                                                     conducting surveillance reviews. The
We conducted this review to determine the            Earned Value Management Center Director
validity of alleged unsatisfactory conditions        should work with DCAA to establish
involving reviews performed in Tucson,               reasonable due dates for conducting audits,
Arizona by the Defense Contract                      hold discussions with DCAA to help resolve
Management Agency Earned Value                       disagreements, and issue a written report on
Management Center.                                   the results of earned value management
                                                     reviews. The Commander, Tucson Contract
What We Found                                        Management Office, should ensure that
                                                     contracting officers adequately resolve
We substantiated the alleged unsatisfactory          DCAA-reported        deficiencies.        The
conditions. During two reviews of a DoD              Commander, Tucson Contract Management
contractor in 2008, the Earned Value                 Office should also suspend or withdraw the
Management Center failed to (1) allow the            acceptance of an earned value management
Defense Contract Audit Agency (DCAA)                 system      and    implement       appropriate
sufficient time to perform an audit of the           contractual actions and remedies for
contractor’s system, (2) adequately resolve          significant system deficiencies.
the DCAA findings, and (3) demonstrate
independence and objectivity in fulfilling its       Management Comments
oversight responsibilities.
                                                     DCMA concurred with 7 of 8
In addition to the substantiated allegations,        recommendations and with Finding B. We
we found that the Earned Value                       request that DCMA reconsider its
Management Center did not issue                      nonconcurrences. We also request that
compliance review reports as required, or            DCMA reconsider its responses to the
recommend suspending or withdrawing                  recommendations because the proposed
approval of the contractor’s system for              corrective actions were partially responsive.
continued noncompliances with earned                 We request additional comments to
value management guidelines.                         Finding A and Recommendations A.1., A.2.,
                                                     A.3., B.1., and B.2., by August 27, 2010.
What We Recommend                                      United States Department of Defense Office of Inspector General
                                                                    (Project No. D2009-DIP0AI-0022.001)
The   Director,    Defense   Contract                                     Report No. D-2010-6-002
                                                                                 July 28, 2010
Management Agency (DCMA), should


                                                 i
                                   Introduction

Objective
We conducted this review to determine the validity of alleged unsatisfactory conditions
involving the actions taken by the Defense Contract Management Agency Earned Value
Management Center at Tucson between March and August 2008. According to the alleged
unsatisfactory conditions, the Earned Value Management Center failed to:

       •	 Provide DCAA sufficient time to perform a comprehensive review of the contractor’s
          compliance with the earned value management guidelines,
       •	 Adequately resolve DCAA’s compliance review findings with DCAA, and
       •	 Remain independent and objective in performing compliance reviews.

See Appendix A for details regarding our scope and methodology.

Background
Earned Value Management is a program management tool used by DoD and industry to
provide early warning of potential contract cost and schedule performance problems. To be
effective, earned value management must be implemented in a disciplined manner consistent
with the 32 earned value management guidelines contained in American National Standards
Institute/Electronic Industries Alliance Standard 748 (ANSI/EIA-748). These guidelines are the
universally accepted criteria against which industry and the government gauge the reliability and
effectiveness of earned value management systems. Defense Federal Acquisition Regulation
Supplement 234.201 provides that (i) for cost or incentive contracts and subcontracts valued
at $20 million or more, a DoD contractor’s earned value management system shall comply with
ANSI/EIA-748 guidelines, and (ii) for cost or incentive contracts and subcontracts valued
at $50 million or more, the cognizant Federal agency must accept the contractor’s earned value
management system based on a review for compliance with the guidelines.

Defense Contract Audit Agency (DCAA), under the authority, direction, and control of the
Under Secretary of Defense (Comptroller), is responsible for performing all contract audits for
DoD and providing accounting and financial advisory services regarding contracts and
subcontracts to all DoD Components responsible for procurement and contract administration.
These services are provided in connection with negotiation, administration, and settlement of
contracts and subcontracts. DCAA issues audit reports resulting from several types of audits,
such as audits on compliance with earned value management guidelines.

Defense Contract Management Agency (DCMA) is the DoD Component that works directly
with Defense suppliers to help ensure that DoD, Federal, and allied government supplies and
services are delivered on time at projected cost and meet performance requirements. According
to the Under Secretary of Defense (Acquisition, Technology and Logistics) memorandum,



                                                1

“Earned Value Management Requirements and Reporting,” the DCMA Director has the primary
responsibility for conducting contractor earned value management system reviews for
compliance with the ANSI/EIA-748 guidelines. DCMA has assigned its contract management
offices with the authority and responsibility of determining the acceptability of the DoD
contractor earned value management system under their cognizance.

The DCMA Contract Management Office located in Tucson, Arizona, is one of 47 such offices
established throughout the United States. In addition, DCMA has established an Earned Value
Management Center (the Center) to conduct initial “compliance” reviews of DoD contractor
systems for compliance with the ANSI/EIA-748 guidelines. The Center is currently comprised
of a team of approximately 31 earned value management specialists who perform compliance
reviews across the United States on a full time basis. The Center also performs follow-up
reviews of significant deficiencies until they are corrected. Once the Center makes an initial
determination that a contractor complies with the guidelines, the Contract Management Office
will recognize such compliance through the issuance of either an Advance Agreement or a Letter
of Acceptance. Thereafter, the Contract Management Office conducts “surveillance” reviews on
an ongoing basis to verify a contractor’s continued compliance with the guidelines. If a
surveillance review detects significant noncompliances, the Contract Management Office may
request that the Center perform another compliance review of all or parts of the contractor’s
earned value management system and could withdraw acceptance of the system until the
contractor reestablishes compliance.

This report addresses two DCMA Earned Value Management Center reviews conducted at a
DoD contractor facility in Tucson, Arizona. The first was a compliance review completed in
April 2008, and the second was a follow-up review completed in August 2008. The April 2008
compliance review disclosed several noncompliances with the ANSI/EIA-748 guidelines. The
contractor took corrective actions on the noncompliances and the DCMA follow-up review
determined that those actions were adequate.

The Center requested that DCAA participate in the April and August 2008 compliance reviews
performed in Tucson. DCAA participated in the April 2008 compliance review and, in
accordance with DCAA procedure, issued an audit report to the Center which expressed its
opinion on the adequacy of the contractor’s earned value management system. DCAA did not
participate in the follow-up review in part because it believed the 4-day time frame established
by the Center was insufficient to perform the review and report on the results.

DCMA is responsible for considering the DCAA opinion in determining the overall acceptability
of the earned value management system. Enclosure 3 of DoD Instruction 7640.02, “Policy for
Follow-up on Contract Audit Reports,” August 22, 2008, outlines the responsibilities for
resolving and completing the disposition of DCAA audit reports. (Note: This Instruction
replaced DoD Directive 7640.2, same subject, which included the same requirement) It requires
that DCMA document the rationale for not upholding any DCAA findings and
recommendations, including those involving earned value management systems.




                                                2

                                       Findings

A. Allegation of Unsatisfactory Conditions

We substantiated the allegation of unsatisfactory conditions. As part of the April and
August 2008 reviews of a contractor’s earned value management system, the DCMA Earned
Value Management Center failed to:

   •	 Provide DCAA sufficient time to perform reviews of the earned value management
      guidelines;
   •	 Adequately resolve DCAA’s reported findings and recommendations; and
   •	 Remain independent and objective in performing compliance reviews of the earned value
      management system.

Insufficient Time for DCAA to Perform an Audit. The Earned Value Management Center did
not allow sufficient time for DCAA to meaningfully participate in the April and August 2008
reviews. The unreasonably short time frames effectively prevented DCAA from fulfilling its
participation responsibilities established in the Under Secretary of Defense (Acquisition,
Technology and Logistics) memorandum, “Use of Earned Value Management (EVM) in the
Department of Defense,” July 3, 2007. Consequently, the Center issued its conclusions on the
acceptability of the contractor’s earned value management system without adequately resolving
DCAA-reported noncompliances or obtaining any DCAA expert audit advice on the financial
and accounting related ANSI/EIA-748 guidelines.

        April 2008 Compliance Review. The Center established a 2-week time frame to
complete a comprehensive review of the contractor’s system for compliance with all 32
ANSI/EIA-748 guidelines. As requested, DCAA participated in the review by auditing the
contractor’s compliance with 8 of the accounting and financial related guidelines. Before
receiving the DCAA audit results, DCMA held an exit conference with the contractor on April 4,
2008 (the last day of the 2-week period) to advise them of the review results and provide a list of
deficiencies. DCAA issued its audit report 6 weeks later on May 15, 2008, which reported
additional noncompliances with 2 of the guidelines. The Center should have waited for the
DCAA audit report before holding the exit conference with the contractor and providing a list of
deficiencies. While the Center did consider an April 2008 draft of the DCAA report, the Center
failed to adequately document its rationale for not upholding the DCAA findings (See “Failure to
Adequately Resolve DCAA Findings” below for additional details).

The Earned Value Management Center Director advised us that the 2-week time frame was
“standard operating procedure” for performing compliance reviews at major DoD contractor
facilities across the United States. In August 2008, the DCAA Director expressed to the DCMA
Director her concern that the 2-week time frame did not allow sufficient time for DCAA auditors
to perform an adequate review and report on their conclusions. The DCAA Director requested


                                                3

that the two agencies work together to analyze whether the 2-week time frame is sufficient and to
develop a mutually acceptable process on future reviews. To our knowledge, DCMA and DCAA
have not yet developed a process for future compliance reviews. Nevertheless, the Center should
not have established an arbitrary and inflexible time frame to conduct reviews at all major DoD
contractors. The established time frame should be based on a careful consideration of the risks
and circumstances at each contractor location.

        August Follow-Up Review. The Center established a 4-day time frame to complete the
follow-up review. On August 12, 2008, DCAA notified the Center that it could not participate in
the follow-up review because (i) the scope of the review had been restricted to the specific
programs where the deficiencies were initially identified, (ii) the programs, cost reports, and
period of time subjected to review had been selected and pre-announced to the contractor, and
(iii) DCAA could not complete a follow-up review within the 4-day time frame established by
the Center. Nevertheless, DCAA offered to perform a follow-up review in a timely manner that
would still allow for incorporation into the final DCMA report. The Center did not adjust
the 4-day requested due date for completing the DCAA follow-up. Rather than utilize DCAA,
the Center used an ex-DCAA auditor on its staff to follow-up on the DCAA-reported
noncompliances.

We agree with the DCAA decision not to participate in the 4-day follow-up review. DCAA is
required to comply with Generally Accepted Government Auditing Standards (GAGAS), which
requires the auditor to independently plan the scope of review.

GAGAS also requires adequate time to plan and implement audit testing. The DCMA imposed
4-day time frame constitutes an external impairment as defined in GAGAS Section 3.10, which
states, “Audit organizations must be free from external impairments to independence. Factors
external to the audit organization may restrict the work or interfere with auditors’ ability to form
independent and objective opinions, findings, and conclusions.” An example of an external
impairment cited in GAGAS Section 3.10 includes, “unreasonable restrictions on the time
allowed to complete an audit or issue the report is a condition that may impair the auditor’s
freedom to make an independent and objective judgment thereby adversely affecting the audit.”

The use of an ex-DCAA employee is not an adequate substitute for obtaining DCAA
participation as required by the Under Secretary of Defense (Acquisition, Technology and
Logistics) memorandum, “Use of Earned Value Management (EVM) in the Department of
Defense,” July 3, 2007. The conclusions of the ex-DCAA auditor do not represent those of
DCAA. DCMA should have coordinated a revised due date with DCAA that would have
allowed sufficient time for DCAA to perform an independent follow-up audit of its own
previously reported noncompliances.

Failure to Adequately Resolve the DCAA Findings. The DCMA Earned Value
Management Center did not adequately resolve DCAA’s reported findings prior to making a
final determination of contractor compliance with all 32 earned value management guidelines.
The Center did not comply with DoD Instruction 7640.02, “Policy for Follow-up on Contract
Audit Reports,” August 22, 2008, enclosure 3, paragraph 2.c., which requires adequate rationale


                                                 4

for any disagreement with the audit findings [or prior DoD Directive 7640.2 (same subject),
paragraph 6.4.1., February 12, 1988]. The Center should hold discussions with DCAA in an
attempt to resolve any disagreements, and request DCAA participation in contractor surveillance
activities.

       DCAA Compliance Audit Report. In Audit Report No. 3561-2008N17750001,
May 15, 2008, DCAA reported significant noncompliances with two of the eight guidelines
reviewed, including Guidelines 16 (Record Direct Costs) and 21 (Material Accounting).

               Guideline 16 Noncompliance. DCAA reported that the contractor did not have
adequate controls to ensure costs reflected in the contractor’s Cost Performance Reports are
consistent with the cost recording in the official books and records. According to DCAA, the
inadequate controls reduced the reliability of amounts reflected in the contractor’s Cost
Performance Reports and diminished the effectiveness of the system.

                Guideline 21 Noncompliance. DCAA reported that the contractor could not
completely explain variances related to recorded material cost due to inadequate training. As a
result, the contractor could have inaccurately reported actual performance statistics in the system.

       Earned Value Management Center Determination. The Center did not uphold the DCAA
findings. The Center determined that the DCAA-reported noncompliances were not systemic or
pervasive based on the following:

        •	 Both noncompliances were found on only one program. Compliance testing
           performed on other programs did not disclose the same deficiencies.
        •	 DCAA lacked evidence to demonstrate that the Guideline 16 noncompliance
           (involving “remapping 1”) significantly distorted reported earned value management
           data.

We disagree with the DCMA conclusion that the deficiencies were not systemic. DCAA found
noncompliances with 2 of the 5 (40 percent) programs reviewed. In addition, we noted that
DCMA had issued three “Deficiency Reports” involving the same type of noncompliances on
two programs.

We also disagree that the DCAA-reported Guideline 16 (Record Direct Costs) noncompliance
lacked evidentiary support. DCMA did not adequately document its rationale for this
conclusion. The DCAA audit report documents indications of inadequate internal controls that
could significantly distort reported earned value management data. For example, DCAA
reported that an excessive amount of “remapped” costs had occurred, which is strong evidence
that the contractor was not relying on its accounting system to control its earned value
management system reporting.
1
 Remapping is the contractor’s process of realigning accounting system costs to budgeted amounts reflected in cost
performance reports.




                                                        5

        Lack of Communication Between DCMA and DCAA. DCMA failed to hold any
discussions with DCAA prior to deciding not to uphold the DCAA findings. As recently
highlighted in the Under Secretary of Defense (Acquisition, Technology and Logistics)
memorandum, “Resolving Contract Audit Recommendations,” December 4, 2009, it is essential
that agencies attempt to resolve significant issues brought to their attention in DCAA audit
reports. DCMA should hold discussions with DCAA in an attempt to resolve any disagreements,
and document those discussions in the contract file.

      Finally, we noted that DCMA Instruction “Earned Value Management System (EVMS)
System-Level Surveillance,” January 2008, does not encourage DCAA participation in
conducting surveillance activities. The Under Secretary of Defense (Acquisition, Technology
and Logistics) memorandum, “Use of Earned Value Management (EVM) in the Department of
Defense,” July 3, 2007, specifically cites participation in contractor surveillance activities as one
of DCAA’s roles and responsibilities. To further help communication and cooperation, this
DCMA Instruction should be revised to request such DCAA participation.

Compromise of Independence/Objectivity in Appearance. DCMA practices for selecting
programs for review and the procedures for conducting compliance and surveillance reviews
give the appearance that DCMA was not sufficiently independent or objective.

         Flawed Selection of Programs. We disagree with the approach used by the Center to
select programs it reviewed for compliance with the guidelines. First, the Center notified the
contractor well in advance which programs and related cost reports it selected for review. As a
result, the contractor’s compliance efforts could have focused exclusively on those pre-selected
programs. Second, the Center did not vary the selection of programs reviewed. DCMA
reviewed the same five programs during the April and August 2008 reviews as it did in a prior
December 2006 review. Therefore, the Government has no reasonable assurance of the
contractor’s compliance on other programs. DCMA has not reviewed approximately ten
additional contractor programs subject to the earned value management guidelines.

        Conducting Joint Activities with the Contractor. The Earned Value Management Center
and Tucson Contract Management Office representatives held joint activities with the contractor
on two separate occasions which could have compromised DCMA’s independence and
objectivity. In January 2007, following a December 2006 DCMA compliance review, DCMA
Tucson Contract Management Office representatives participated in a week-long contractor
review to identify root causes of various deficiencies and to develop a corrective action plan. In
December 2007, representatives from DCMA Tucson Contract Management Office and the
Center attended the contractor’s internal audit of its system in preparation for the April 2008
DCMA compliance review. DCMA officials charged with determining system compliance
should not participate with the contractor in developing corrective action plans or performing
internal audits. Participation in such activities may compromise the ability of DCMA to
independently determine system compliance and continued acceptability of the earned value
management system.



                                                  6

        We also noted that DCMA Instruction “Earned Value Management System (EVMS)
System-Level Surveillance,” January 2008, strongly encourages contractor participation in
planning and conducting DCMA surveillance reviews. For example, Paragraph 2.2 of the
Instruction entitled, “Responsibilities,” states:

        "A joint surveillance process between the CMO, the EVM (Earned Value Management)
        Center, and supplier (contractor) is encouraged and, if established, should be documented
        as part of the Standard Surveillance Plan.....The supplier is not required to participate in
        the government surveillance process but is strongly encouraged to do so. Teaming is an
        essential ingredient to an effective surveillance program.” (clarification added)

        DCMA should not plan or conduct joint surveillance reviews with the contractor. Such
procedures could create an appearance that DCMA is not sufficiently independent and objective
in conducting surveillance activities. In accordance with DFARS 234.201, "Policy," DCMA is
responsible for determining compliance on DoD contracts. This is not a shared responsibility
with the contractor and should not be confused with the contractor’s responsibility for
implementing and maintaining an acceptable earned value management system. DCMA should
revise the Instruction to remove the encouragement of contractor participation in the surveillance
review process.

Management Comments on the Finding and Our
Response

       Management Comments: Insufficient Time for DCAA to Perform an Audit. The
       DCMA Director did not concur. The Director acknowledged that DCAA’s goal is to
       provide thorough and complete audits that often take time. The Director states that
       DCMA’s reviews lose their effectiveness and impact if DCMA’s results are presented to
       the contractor long after the review has been completed.

       The May 15, 2008 DCAA Audit Report indicated that DCAA would follow up on its
       findings in ninety days. Although DCAA declined to participate in DCMA’s follow-up
       review one week prior to the scheduled August 2008 review date, DCAA participated on
       joint oversight surveillance activities with DCMA. DCAA declined to participate in the
       August follow-up review, in part, because “the scope of the review had been restricted to
       the specific programs where the deficiencies were initially found.” The purpose of the
       follow-up review is to confirm that initial findings have been remedied rather than look at
       other programs.


       DoD IG Response. We disagree with the management comments. DCMA does not
       explain how the review loses its effectiveness. The reviews would be significantly more
       effective if DCMA and DCAA agreed to a reasonable timeframe so that the contractor
       would be provided with comprehensive results from DCMA. DCAA is required to
       perform their audits in accordance with Generally Accepted Government Auditing


                                                       7

Standards. These standards require that auditors be provided adequate time to complete
an audit and issue the report. Two weeks and certainly four days, is not sufficient time
for DCAA to perform an audit and submit a report on a large major contractor. DCMA’s
reviews would be more effective if DCMA received DCAA’s audit report before the
results of the compliance review are presented to the contractor. DCMA should work
together with DCAA in developing mutually acceptable due dates on future compliance
reviews.

DCAA notified DCMA that the scope of the August 2008 follow-up review had been
restricted to the specific programs where the deficiencies were identified in April 2008.
The earned value management system is used by programs other than those previously
reviewed. A previously reported deficiency could exist on other programs. All programs
should be subject to testing. Therefore, the follow-up review should not be limited to
previously tested programs. The scope of the follow-up review may be focused on
certain guidelines to determine if the deficiencies have been remedied; however, all
programs that use the earned value management system should be subject to review.
Therefore, the scope of a follow-up review should include transaction testing on all
programs, rather than only the programs where deficiencies were previously found.

Management Comments: Failure to Adequately Resolve the DCAA Findings.
The DCMA Director did not concur. The DCMA Director agreed that the DCAA
findings of noncompliance were valid. However, DCMA did not consider the issues
systemic. Therefore, the DCMA Contract Management Office worked with DCAA to
correct the issues as part of the contractor’s Corrective Action Plan. The management
comments state that of the three unrelated EVMS deficiencies cited by DCAA in their
May 15, 2008 audit report, each deficiency was found on only one of fourteen EVM
programs. Because the DCAA findings were not systemic, they could have been
followed-up and verified through joint surveillance.

The DCMA Contract Management Office August 2008 surveillance report indicated that
issues related to the DCAA May 15, 2008 audit report were corrected. Also a DCAA
October 2008 memorandum recognized the contractor had completed all Corrective
Action Plan actions. The management comments state that DCAA provided the final
subsequent audit report nineteen months after the DCAA May 15, 2008 audit report. The
effectiveness of DCMA’s compliance determination efforts requires more time-sensitive
responses. DCMA is committed to providing better documentation of any
determinations it makes that are inconsistent with DCAA recommendations.


DoD IG Response. We disagree with the management comments. Audit findings
reported by DCAA were not adequately resolved with DCAA. Deficiencies with
Guideline 16 were found on three of the five programs reviewed. Guideline 16
deficiencies were found by DCAA on two programs and by DCMA on a third program.
Therefore, we do not agree that the deficiencies with Guideline 16 are not systemic.



                                        8

The effectiveness of DCMA’s compliance determinations is not dependent on a time-
sensitive response from DCAA. By denying DCAA the time that it needs to perform
adequate testing, DCMA gives an advantage to the contractor. DCMA compliance
determinations should be based on recommendations from DCAA. DCMA should not
make a determination of compliance until it has received the recommendations that it
needs from DCAA.

DCAA issued an October 2, 2008, memorandum to DCMA that reported the contractor
completed its corrective action plan. DCAA stated that in order to determine compliance
and the effectiveness of the contractor’s corrective actions, DCAA needs to perform a
review by testing selected programs. However, DCMA did not resolve DCAA’s reported
findings of noncompliance prior to making a determination that the contractor is
compliant with all 32 earned value management guidelines. It is the responsibility of
DCMA to resolve and disposition audit report findings and recommendations.
Communication and discussion with the auditor is required to fully understand and
resolve reported audit findings.


Management Comments: Compromise of Independence/Objectivity in
Appearance. The DCMA Director did not concur. The Director states that DCMA has
established and maintains a cooperative Government-contractor relationship that does not
compromise the independence of their decisions. A Review for Cause is a focused
review of specific elements of the contractor’s earned value management system in order
to confirm the acceptability of the system. Advance notification to the contractor is
necessary to ensure the contractor can support a review during the time period, key
employees are available for interview, and the data requested is provided to the review
team before the review.


DoD IG Response. We disagree with the management comments. In accordance with
DFARS 234.201, “Policy,” DCMA is responsible for monitoring the contractor’s system
for compliance with the earned value management guidelines. This responsibility is not a
shared responsibility with the contractor. The contractor is responsible for establishing
and maintaining an acceptable earned value management system. DCMA should
encourage the contractor to perform its own surveillance activities to improve their
system. DCMA’s Surveillance Report dated August 31, 2008, is signed by the contractor
as well as DCMA. Joint surveillance reviews with the contractor could create an
appearance to third parties that DCMA is not sufficiently independent and objective in
their decision regarding compliance of the contractor’s system.

We do not agree that advance notification should be given to the contractor. On
December 14, 2007, DCMA provided the contractor with nearly four months advance
notice that the earned value management system would be reviewed on March 25, 2008.
In addition, DCMA did not vary the selection of programs reviewed. As a result,



                                        9

      contractor’s compliance efforts could have focused exclusively on these pre-selected
      programs.

Recommendations, Management Comments and
Our Response
Recommendation A.
1. We recommend that the Director, Defense Contract Management Agency, revise
Defense Contract Management Agency Instruction, “Earned Value Management System
(EVMS) System-Level Surveillance,” January 2008, to:

    a.	 Prohibit joint surveillance reviews or other joint activities with a contractor that
        could compromise the independence and objectivity of Defense Contract
        Management Agency to carry out its earned value management oversight
        responsibilities.

       Management Comments. The DCMA Director non-concurred in part. DCMA
       agrees with and is committed to ensuring that the decisions which result from its
       surveillance and compliance reviews represent an independent DCMA decision.
       DCMA does not agree that the only way to achieve this independence is by isolating
       the contractor from the review process. Joint surveillance reviews provide the
       opportunity for the contractor and Government officials to fully understand the critical
       elements of the earned value management system and how they work together to ensure
       that reports generated by this system are accurate. The contractor’s internal oversight
       organizations are invited and encouraged to participate in DCMA’s surveillance
       activities. The contractor members who participate are not representatives of the
       programs under review but are usually officials from the contractor’s
       policy/compliance staff.

       DoD IG Response. We request that the DCMA Director reconsider his position. We
       agree with DCMA that their decisions resulting from its surveillance and compliance
       reviews should represent an independent DCMA decision. We agree that the contractor
       should not be isolated from the review process when the contractor’s system is being
       reviewed by the Government. We do not agree that DCMA should conduct joint
       surveillance reviews with the contractor, because the Government is responsible for
       making independent decisions whether the contractor’s system is compliant.

       DCMA is responsible for determining compliance on DoD contracts in accordance with
       DFARS 234.201, “Policy.” This is not a shared responsibility with the contractor and
       should not be confused with the contractor’s responsibility for implementing and
       maintaining an acceptable earned value management system. DCMA should
       encourage the contractor to perform its own surveillance activities to maintain and


                                             10

       improve its system. Joint surveillance with the contractor could create an appearance to
       third parties that DCMA is not independent or objective in conducting surveillance
       activities.

       DCMA’s Instruction “Earned Value Management System (EVMS) System-Level
       Surveillance,” January 2008, paragraph 2.2 states that joint surveillance is when
       DCMA and the contractor leads jointly conduct a review. Although the Instruction
       does not require the contractor to participate in the Government surveillance process,
       the contractor is strongly encouraged to do so. We request that the DCMA Director
       reconsider his position and revise this Instruction to remove the encouragement of
       contractor participation in the surveillance review process. Therefore, we request that
       the DCMA Director provide revised comments.

    b.	 Request Defense Contract Audit Agency participation in conducting surveillance
        reviews of contractor earned value management systems.

       Management Comments. The DCMA Director concurred. The Director states that
       it routinely requests DCAA participation in surveillance reviews and is working
       aggressively to synchronize surveillance review schedules.

       DoDIG Response. Although management concurred, their proposed corrective
       actions are only partially responsive. The Under Secretary of Defense (Acquisition,
       Technology and Logistics) memorandum, “Use of Earned Value Management (EVM)
       in the Department of Defense,” July 3, 2007, specifically cites participation in
       contractor surveillance activities as one of DCAA’s roles and responsibilities. We
       request that the DCMA Director provide a response to the final report describing the
       revisions it plans to make to DCMA Instruction, “Earned Value Management System
       (EVMS) System-Level Surveillance,” January 2008, to ensure DCAA participation in
       surveillance activities. Also, provide the completion dates for actions planned.


2. We recommend that the Director, Defense Contract Management Agency Earned
Value Management Center, implement quality assurance procedures to:

    a.	 In conjunction with the Defense Contract Audit Agency, establish reasonable due
        dates for performing earned value management reviews that properly consider the
        risks and circumstances of each contractor location.

       Management Comments. The DCMA Director concurred. The Director states that
       the agencies will continue to work cooperatively to reach agreement or develop
       alternate processes.

       DoD IG Response. Although management concurred, their proposed corrective
       actions are only partially responsive. We request that the DCMA Director provide a
       response to the final report describing the quality assurance procedures the DCMA


                                             11

        Earned Value Management Center plans to implement that will ensure reasonable due
        dates are established with DCAA for performing earned value management system
        reviews. Also provide the completion dates for actions taken or planned.


     b.	 Require that earned value management specialists hold and document discussions
         with the Defense Contract Audit Agency to help resolve auditor-reported earned
         value management system deficiencies.

        Management Comments. The DCMA Director concurred. The Director stated that
        the agencies will continue to work cooperatively to develop a satisfactory process.

        DoD IG Response. Although management concurred, their proposed corrective
        actions are only partially responsive. We request that the DCMA Director provide a
        response to the final report describing the quality assurance procedures the DCMA
        Earned Value Management Center plans to implement that will require earned value
        management specialists to hold and document discussions with DCAA to resolve
        system deficiencies reported by the auditor. Also provide the completion dates for
        actions taken or planned.

3. We recommend that the Commander, Tucson Contract Management Office, Defense
Contract Management Agency, implement quality assurance procedures to help ensure
that deficiencies reported by the Defense Contract Audit Agency are adequately resolved
and dispositioned in accordance with Enclosure 3, paragraphs 2 and 3 of DoD
Instruction 7640.02, “Policy for Follow-up on Contract Audit Reports,” August 22, 2008.

        Management Comments. The DCMA Director concurred. The Director states
        procedures are already in place.

        DoD IG Response. Although management concurred, their proposed corrective
        actions are only partially responsive. We request that the DCMA Director provide a
        response to the final report describing the quality assurance procedures the
        Commander, Tucson Contract Management Office, took or plans to take for ensuring
        that deficiencies reported by DCAA are adequately resolved and dispositioned in
        accordance with DoD Instruction 7640.02. Also provide the completion dates for
        actions taken or planned.




                                             12

B. Other Issues to be Reported

Issue One: Compliance Review for Cause (RFC) Reports. The Earned Value
Management Center failed to issue a written report of its findings on either the April or
August 2008 reviews, which is not in compliance with DoD Earned Value Management
Implementation Guide, October 2006. The DoD Earned Value Management Implementation
Guide, section 2.3.5.4, RFC Results, states “A formal report is prepared by the Review Director
within 30 working days after completion of the review.” A written report of DCMA findings is
essential to provide a record of the deficiencies found and corrective actions recommended.

Issue Two: Validation of the Contractor’s Earned Value Management System. The
contractor’s system, based in Tucson, Arizona, has been validated and accepted since 1999.
DCMA did not suspend or withdraw the validation of the contractor’s system even though a
February 2007 DCMA report documented contractor noncompliances with 20 of the 32 earned
value management guidelines. A prior 2003 Naval Audit Service review had also disclosed
several noncompliances. The DoD Earned Value Management Implementation Guide,
section 2.3.7.2, Withdrawal of Validation, states:

       “If the contractor fails to demonstrate correction of all system deficiencies, the PCO
       (procurement contracting officer) and/or ACO (administrative contracting officer) in
       coordination with the DCMA EVM (Earned Value Management) Center formally withdraws
       the validation of the contractor’s EVM System....The contractor may not claim to have an
       accepted EVM system in any new proposal until re-validation of the EV system has been
       achieved. To obtain re-validation, the contractor is required to demonstrate full compliance
       with all 32 guidelines in a Validation Review.” (clarification added)

        According to the February 2007 report, the contractor had made “very little progress”
toward correcting the noncompliances reported since 2003 (a 4-year period). At a minimum,
DCMA should have immediately suspended validation of the contractor’s system based on the
contractor’s lack of progress in correcting the deficiencies. The failure of DCMA to suspend the
validation of the contractor’s system subjected the Government to unnecessary risk. To further
protect the Government’s interests, DCMA should have also documented its consideration of
contractual actions and remedies in accordance with section 2.3.6.2 of the DoD Earned Value
Management Implementation Guide which states, “The appropriate use of contractual actions
and remedies is required to protect the Government’s interest if noncompliance occurs.” The
uniform and consistent application of actions and remedies for earned value management system
noncompliances is essential for promoting contractor-initiated corrective action and protecting
the Government’s interests.




                                                      13

Recommendations, Management Comments and
Our Response

Recommendation B.
1. We recommend that the Director, Defense Contract Management Agency Earned
Value Management Center implement through policy or procedural guidance the
requirement to issue written reports on the results of all earned value management system
reviews, as section 2.3.5.4 of the DoD Earned Value Management Implementation Guide
(October 2006) requires.

        Management Comments. The DCMA Director concurred. The Director states that
        organizational changes are being implemented to ensure quality assurance and
        configuration management of the reporting process. DCMA expects to complete the
        changes in the fourth quarter FY 2010.

        DoD IG Response. The management comments are only partially responsive. We
        request that the DCMA Director provide a response to the final report describing the
        action the DCMA Earned Value Management Center plans to take.

2. We recommend that the Commander, Tucson Contract Management Office, Defense
Contract Management Agency, establish quality assurance procedures to ensure that
contracting officers take action to:

     a.	 Suspend or withdraw the validation and acceptance of contractor earned value
         management systems with significant deficiencies in accordance with section 2.3.7
         of the DoD Earned Value Management Implementation Guide; and

        Management Comments. The DCMA Director concurred. DCMA states a process
        is already in place.

        DoD IG Response. The management comments are only partially responsive. We
        request that the DCMA Director provide a response to the final report describing the
        quality assurance procedures the Commander, Tucson Contract Management Office,
        took or plans to take for ensuring that contracting officers suspend or withdraw the
        validation and acceptance of a contractor’s earned value management system when a
        contractor fails to correct reported system deficiencies. Also provide the completion
        dates for actions taken or planned.




                                              14

b.	 Implement contractual actions and remedies to protect the Government interests
    associated with significant earned value management system deficiencies in
    accordance with section 2.3.6.2 of the DoD Earned Value Management
    Implementation Guide.

   Management Comments. The DCMA Director concurred and in conjunction with
   OSD and DCAA, DCMA is taking steps to implement this recommendation.

   DoD IG Response. The management comments are only partially responsive. We
   request that the DCMA Director provide a response to the final report describing the
   quality assurance procedures the Commander, Tucson Contract Management Office,
   took or plans to take for ensuring that contracting officers implement contractual
   actions and remedies when significant earned value management system deficiencies
   are not corrected by a contractor. Also provide the completion dates for actions taken
   or planned.




                                         15

Appendix A. Scope and Methodology
We evaluated the validity of alleged unsatisfactory conditions involving the DCMA Earned
Value Management Center. Specifically, we:

   •	 reviewed Earned Value Management Center, DCMA Tucson Contract Management
      Office, and DCAA Tucson office documents and records;
   •	 interviewed employees of the DCAA Tucson office involved with Audit Report
      No. 3561-2008N17750001, May 15, 2008, and reviewed the associated working papers;
   •	 interviewed Earned Value Management Center employees involved in the April and
      August 2008 reviews of a contractor’s earned value management system; and
   •	 determined if the actions taken by the Center were compliant with applicable standards,
      public law, and DoD regulations, directives, and instructions.
We performed this review from April 2009 through December 2009.

Use of Computer-Processed Data. We did not rely on any computer-processed data as part
of our review.

Prior Coverage. In the last 5 years, we issued six other reports related to Defense Contract
Management Agency actions on Defense Contract Audit Agency audit reports.

       •	 DoD IG Report No. D-2009-6-008, “Report on Hotline Complaint Regarding the
          Actions by a Contracting Officer at the Defense Contract Management Agency, East
          Harford Office,” August 31, 2009
       •	 DoD IG Report No. D-2009-6-004, “Defense Contract Management Agency Actions
          on Audits of Cost Accounting Standards and Internal Control Systems at DoD
          Contractors Involved in Iraq Reconstruction Activities,” April 8, 2009
       •	 DoD IG Report No. D-2007-6-010, “Reimbursement of Settlement Costs at Defense
          Contract Management Agency Melbourne,” September 28, 2007
       •	 DoD IG Report No. D-2007-6-009, “Actions on Reportable Contract Audit Reports
          by the Defense Contract Management Agency’s Northrop Grumman El Segundo
          Office,” September 28, 2007
       •	 DoD IG Report No. D-2007-6-004, “Defense Contract Management Agency
          Virginia’s Actions on Incurred Cost Audit Reports,” April 20, 2007
       •	 DoD IG Report No. D-2005-6-003, “Defense Contract Management Agency Santa
          Ana Office’s Actions on Incurred Cost Audits,” March 17, 2005




                                               16

Defense Contract Management Agency
Comments


                             DEFENSE CONTRACT MANAGEMENT AGENCY
                                        6350 WALKER LANE , SUITE 300
                                      ALEXANDRIA. VIRGINIA 22310-3226




                                                                            10 March 20 10


      MEMORAND UM FOR DEPUTY INS PECTOR GENERAL FOR POLICY AND
                      OVERSIGHT ATTN: MR. CHARLES W. BEARDALL

      SU BJECT: Draft Report - All egatio n ofU nsati sfaclofY Conditions Regarding Acti ons by
                   the DCMA Earned Value Management Center dated January 25 , 20 10

                   Reference: Project No. D2009-D IPOA I-0022.00 1

                   Please fin d attac hed the Defense Contract Management Agency (DeMA)
      response to the DoD IG draft report, D2009-DIPOAI-0022.00 1, "Review of All eged
      Unsati sfactory Cond iti ons Regard in g Act ions by the DCMA EYM Center," dated January
      25, 20 10.

                   A summary of OU f response to the report's reco mm endations and findin gs can
      be found at attachm ent 1. We have given great consideration to our non-co ncurrence in
      part with recommend ati on A 1 regarding the independence of our reviews. We take the
      independence o f our deci sions very seriously and work very hard to ensure that the
      indepe ndence of deci sion making is not com prom ised by the need to have open
      engagement with key stakeholders in thi s process. As a result, DCMA has successfull y
      demonstrated that havi ng open channe ls of communi catio n wi th contractors increases
      transparency of issues and leads to more lasting so luti ons.

                    DCMA is wo rking to strengthen our partnership with DCAA not onl y in
      Earned Va lue Management System (EVMS) surve ill ance rev iews but in a ll business
      systems audi ts. I have establi shed quarterl y update meetings with the DCAA Director and
      wi ll wo rk to establi sh processes that ensure both Agencies are able to work together to
      produce the best outcomes for the Department. We have olTered to al so assist DCAA in
      obtaining the info mlat io n it requires from industry to support its audits in an attempt to
      help DCAA improve the timeliness of aud its.

                   We apprec iate the oppo rtunit y to comment o n the draft report. My point of
      cont act is David Kesler at 804-416-9074 or Dav id.Kesterr@dcma.mil.




      Enclosure O ne:
                                                    cJ?~.
                                                    Director

      Summary Respon se




                                                 17 

DCMA Response to the DoD IG Draft Report, D2009-DIPOAI-0022.001 , "Allegation of
Unsatisfactory Co nditions Regarding Actions by the Defense Contract Management
Agency. Earned Value Management Center." dated Janual"')' 25, 2010


RECOMMENDATION A:

1. We recommend that the Director, Defense Contract Management Agency, revi se Defense Contract
Ma nagement Agency Instruction , "Earned Va lue Management System (EVMS) System. Level
Surveillance," January 2008, to:

       a.   Pro hibit j oint surve il lance reviews or other joint activiti es with a contractor that could
            compromise the independence and object ivity of Defen se Contract Management Agency
            to carry ou t its ea rn ed va lue managemen t oversight responsibilities; and

        DCMA Response: Non-concur in part ; DCMA agrees wit h and is com mitted to ensurin g
       that the decisions whic h resu lt from it s surve ill ance a nd co mpliance reviews represent an
        independem DCMA decision. DCMA does not agree that the only way to achieve this
        independence is by iso lat ing the contractor from the review process. Joint surve illance
       reviews provide the opport unity fo r the contractor and govern ment officia ls to fully
       unde rstand the critica l elements o f the EYM system and how they work together to ensure
       that report s gene rated by th is system are accurate . The make-up of the DCMA
       surveillance/compliance team is ro bust and inc ludes multiple gove rnmental sta keholders. T he
       contractor's interna l overs ight organizati ons are invited and encouraged to participate in
       DCMA 's survei ll ance activities. The contractor mem bers who participate are nOl
       representatives of th e program s under review but are usua lly officia ls from the contractor's
       policy/compliance stafT. In vo lvin g these officia ls early in the process e nhances the ir
       understa nding of the probl ems iden ti fied by the DCMA tea m and the required corrective
       actions. Converse ly, it provides the DCMA team access to ind ividuals with knowledge about
       the system a nd how it is used whic h is very beneficial. We do not be li eve thi s process
       compromises the independence of o ur decisions. In fact, the proof is evident by s impl y
       rev iew ing DCMA 's c urrent industry EVMS ratings. By an d large our ratings reflect serio us
       issues wit h respect to the state ofEVMS in indu stry and DCMA has cons istently articulated
       these concerns. We believe establi shin g and maintaining a cooperative Gove rnm ent-
       contractor re lati onship is an e ffi cient and effective way of reachin g the Government 's EVMS
       goals. One method to mai ntain thi s efficiency is to foc us surve illance and assessment e fforts
       on those programs with the greatest payback. Another is to ensure rapid availabi lity o f data
       and key personne l during rev iews and assessments. Through targeted program se lection,
       e liminating contractor participants in vo lved with those program s and adva nce notice of
       review areas, we maintain our independence while at the same time providing fle xible , time·
       sensiti ve EVMS reviews .


       b. Request Defense Cont ract Aud it Agency participation in conduct ing survei llance reviews
          of contractor ea rned value management syste ms.

      OCMA Response: Conc ur. DCMA concurs a nd rout ine ly requests DCAA participation
      in surveillance reviews. We are a lready working aggressively to sync hron ize
      su rvei Il ance review sc hedu les .




                                                  18 

 DCMA Response to the DoD IG Draft Report, D2009-DIPOAI-0022.001, "Allegation of
 Unsatisfactory Cond itions Regarding Actions by the Defense Contract Management
 Agency, Earned Value Management Center," dated January 25. 2010



 2. We recommend that the Director, Defense Contract Management Agency Eamed Val lie Management
 Center. impl ement quality assurance procedures to:

        a.   In conjunction with the Defen se Contract Audit Agency, estab li sh reasonable due dates for
             perfonn ing earned va lue management reviews that properly consider the ri sks and
             circumstances of each contractor locati on;

        DCMA Response: Concur. The agencies will continue to work cooperatively to reach
        agreement or develop alternate processes.

        b.   Require that earned va lue management specialists ho ld and document di scussions with
             the Defense Contract Audit Agency to help reso lve auditor-reported earned va lue
             management system deficiencies."

        DCMA Response: Concur. DCMA concurs and the agencies wi ll continue to work
        cooperatively to develop sati sfacto ry proc-ess.

3. We recommend that the Commander, Tucson Contract Management Office, Defense Contract
Management Agency, implement quality assurance procedures to help ensure that defici encies
reported by the Defense Contract Aud it Agency are adequately resolved and disposilio ned in
accordance with Enclosure 3, paragraphs 2 and 3 of DoD Instruction 7640.02 , " Po licy for
Follow-up on Contract Audit Reports," August 22, 2008."

        DCMA Response: Concur. Procedures are already in place, but EVMS validation
        suspension or withdrawal is not appropriate in thi s particular instance . Deficiencies
        noted are either resolved or not as widespread or costly as 10 be considered systemic .



RECOMMENDATION S:

 1. We recommend that the Director, Defen se Contract Management Agency Earned Value
Management Center implement, through pol icy or procedura l guidance, the requirement to issue
written reports on the results of all earned va lue management system reviews, as secti on 2.3.5.4 of
the DoD Earned Value Management Implementation Guide (October 2006) requires.

       DCMA Response: Concur. DCMA concurs and does issue written reports, and
       organjzational changes are being implemented to ensure quality assurance and
       configurat ion management of th e reporting process.




                                                    2




                                                   19 

DCMA Response to the DoD IG Draft Report, D2009-DIPOAI-0022.00I, "Allegation of
Unsat isfactol)' Conditions Regarding Actions by the Defense Contract Management
Agency, Earned Value Management Ce nter," dated January 25, 2010


2. We recommend that the Commander, Tucson Contract Management Offi ce, Defense Contract
Management Age ncy, estab lish qual ity assurance procedures to ensure that contracting oflicers take
action to :

    a. Suspend or withdraw the va lidat ion and acceptance of contractor earned va lue management
       systems with s ignificant de fi ciencies in accordance with section 2.3.7 oflhe DoD Earned
         Va lue Management Implementation Guide; and

         DCMA Response: Conc ur. DCMA concurs and notes that a process is already in place.
         HO\vever, EYMS suspension/withd rawal is not warranted in this particular instance.

    b. Impl ement co ntractual actions and remedies to protect the Government interests associated
       with significan t earned val ue management system deticiencies in accordance with section
       2.3.6.2 of the DoD Earned Va lue Management Implementati on Guide."

        DCMA Response: Co ncur. DCMA concurs and in conj un ction with OSD and DCAA, is
        taking steps to impl ement this recommendation .



FINDING: (Starting at top of Page 4) - A. Allegation of Unsatisfactory Co nditions

Insufficient Time for DCAA to Perform an Audit.

        VCMA Response: Non -concur. DCMA ack now ledges that DCAA's goal is to
        provide tho rough and comp lete aud its and that thi s often takes time.
        Notwithstanding, DCMA' s EVMS re views lose their effectiveness and impact if
       our results are presented to the contractor long after the review has been
       completed. In this case DCAA had been invol ved in the review process since
        December 2006 and participated on the EYMS reviews unti l new DCAA policy
       was established in August 2008 to not panicipate in IPTs. Prio r to this, the
       DCAA had worked closely with the DCMA since December 2007 o n contractor
       EVMS Corrective Action Plan (CAP) status and provided ev idential data to
       demonstrate CAP progress. The May 2008 DCAA report indicated DCAA 's
       intent to follow up on its EVMS findings in ninety (90) days whi ch coi ncid ed
       with the scheduled DCMA August 2008 EVMS Review for Cause (RFC ).
       Although the DCAA declined to part icipate on DCMA 's follow-up review one
       week prior to the sc heduled August review date, the DCAA con tinued to
       participate on joint oversight surveillance activities with DCMA. In addition, the
       sampling of contractor EVMS data (provided at weekly CAP meetings) facilitated
       DCAA 's participation in the RFC as veri fi cation act iviti es continued. DCAA
       declined to participate in the follow-up review, in part, because "the scope of the
       review had been restricted to the spec ific programs where the deficienci es were

                                                 3




                                               20 

 DCMA Response to the 000 IG Draft Report, D2009-DIPOAI-0022.00J, "Allegation of
 Unsatisfactory Condition s Regarding Actions by the Defense Contract Management
 AgenC)', Earned Val ue Management Center," dated January 25, 2010


       initially found." It should be noted that the pu rpose ofa fo llow-up review is to
       explore impro vements enacted since initial fi ndings, and to conti rm they have
       been remedied. It is not to look at other programs as part ofa "de novo" rev iew.


 Fa ilure to Adequately Resohre the DCAA Findings.

        DCMA Response: Non-conc ur. All DCA A findings are carefully evaluated and
        considered by the DCMA. In the present case, DCMA'5 conclusions were, in part based
       on the March 2008 DCAA audit, the contractor's subsequent actions and the DCMA
        follo w up review in August 2008, whi ch was conducted in the absence ofa DCAA fo ll ow
        up audit. Whi le the DCMA EYM Center agreed that the nCAA findings of
       noncompliance were valid, the DCMA EYM Center did not consider the issues systemic
       and the DCMA Contract Management Office (CMO) worked with the DCAA to co rrect
       the issues as part of the contractor's CAP. Of the three unrelated EYMS deficiencies
       c ited by DCAA in the May 2008 Audit report, each deficiency was found on only one of
       fourteen EVM applicable RMS programs. Deficiency reports resulting from DCMA
       EYMS reviews were not th e same type that were noted by the DCAA and were
       considered as either immaterial or non-systemic. The May 2008 DCAA audi t report
       indi cated the RMS Accounting System and Overall Co ntrol Env ironment, Material
       Management and Accou ntin g (M MAS), Budget and Planning System, Labor System, and
       Indirect Cost/Other Direct Cost Systems (IDC/ODC) were considered to be adequate.
       Because the DCAA findings were not systemic, they cou ld have been followed-up and
       ve rified through joint surveillance. The CMO August 2008 surve illance report indicated
      that iss ues related to the DCAA May report were corrected and a DCAA Oc tober 2008
      memorandum recognized the contrac tor had completed all CAP act ions. Whi le DCAA
      did provide the final subseq uent aud it report, it was nineteen (19) months after the May
      2008 audit report was released. The effectiveness ofDCMA 's EYMS comp li ance
      deternlination efforts requires more time-sensiti ve responses. As executive agent for the
      Government , DCMA 's charter is somewhat different from that of DCAA 's, and DCMA 's
      summary findings may not always be consistent with those of DCAA. However, DCMA
      is committed to increase cooperation with DCAA in resol ving review fi ndi ngs and , in
      particular, DCMA is committed to providing better documentation of any determination s
      it makes that are inconsistent with DC AA recommendations.

Com promise of Independence/Objectivity in Appearance.

      OCMA Response: Non-concur. The DCMA has estab li shed and maintain s a
      cooperative Government-contractor relationship as an efficient and more effec'{ive
      way of reaching the Government's EY goals. We do not believe the process used
      compromises the independence of our decisions . The proo f is ev ident by simply
      reviewin g the current state of industry as assessed by DCMA. I four

                                               4




                                              21 

DCMA Response to the DoD IG Draft Report, D2009-DlPOAI-0022.001, "Allegation of
Unsatisfactory Conditions Regarding Actions by the Defense Co ntract Management
Agency, Earned Value Management Center," dated January 25, 2010


       independence was compromi sed DCMA's assessment of industry EYMS
      wouldn't show the degree or number of troubled contractors that DCMA is
      reporting. All contracts with EVMS requirements at a given contractor location
      arc- reviewed on a continua l basis through ongoi ng surveillance. An EVMS RFC
      is a focused review ofspecitic elements oflhe contractor's EVMS in order to
      solve a major system app li cation problem and reaffirm system acceptability. In
      order to avoid program di sruption, the se lection of programs, the scope and
      conduct of the RFC is limited to onl y the system processes that are affected. Prior
      notification provided the contractor in advance o f what programs are selected for
      review is necessary to ensure that the programs selec ted are able to support a
      comprehensive review during the time period involved, key managers are
      avai lab le for interviews, and that the data requested is provided to the review team
      in advance of the review.

FINDINC: (Starting at top of Page 10) - B. Other Issues to Be Reported

Issue One: Compliance Review for Cause (RFC) Reports - Center Failed to Issue Written
Report.

      DCMA Response: Concur. DCMA does issue written reports, and organizational
          chan ges are being implemented to ensure quality assurance and confi gu ration
          management of the reporting process. Est: 4Q FY20 I o.

Issue Two; Validation of the Contractor's [VMS - DCMA Failure to SuspendlWithdraw              [V
System Validation.

      DCMA Response: Concur. A revision to the compliance determination process is being
      considered to stren gthen contractor accountability for noncompliance to include imposing
      contractual remedies in line with the proposed DFARS rule shou ld it be implemented.
      Because all RMS EVMS deficiencies have been corrected withdrawal is not warranted in
      this particular instance.




                                               5




                                             22 

